AFFIDAVIT OF SERVICE

SUPREME COURT OF THE UNITED STATES

 

THE ESTATE OF THOMAS STEINBECK, GAIL STEINBECK, AND THE
PALLADIN GROUP, INC.,

Petitioners,

V.

WAVERLY SCOTT KAFFAGA, as executor of the Estate of Elaine Anderson
Steinbeck,

Respondent.

   

DISTRICT OF COLUMBIA

I, Junru Yu, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:

Iam an employee to Counsel of Record for Petitioners.

That on the 2nd day of January, 2020, I served the within Application for
Extension of Time to File A Petition for A Writ of Certiorari in the above-
captioned matter upon:

Susan J. Kohlmann
Jenner & Block LLP
Attorney for Respondent
919 Third Avenue

New York, NY 10022
(212) 891-1690
skohlmann@jenner.com

by depositing one copy of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository
maintained by the United States Postal Service, via First Class Mail.
That on the same date as above, three copies of the within Application for
Extension of Time to File A Petition for A Writ of Certiorari were hand delivered to

this Court.

All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 2nd day of January 2020.

Sworn to and subscribed before me this 2nd day of January 2020.

Rp
as (—

Notary Public

  
   

 

i My 7
oi COMNISSIO|
EXPIRES
1/30/2021"

  
